<html>
<title> - DRUG ENFORCEMENT AND THE RULE OF LAW: MEXICO AND COLOMBIA</title>
<body><pre>[Senate Hearing 111-1141]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1141

 
       DRUG ENFORCEMENT AND THE RULE OF LAW: MEXICO AND COLOMBIA

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2010

                               __________

                          Serial No. J-111-92

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
76-175                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f485f406f4c5a5c5b474a435f014c404201">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
                      Joseph Zogby, Chief Counsel
                 Brooke Bacak, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    90
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    92

                               WITNESSES

Breuer, Lanny A., Assistant Attorney General, Criminal Division, 
  U.S. Department of Justice, Washington, DC.....................     3
Johnson, David T., Assistant Secretary, Bureau of International 
  Narcotics and Law Enforcement Affairs, U.S. Department of 
  State, Washington, DC..........................................     5
King, Gary K., Attorney General State of New Mexico, Santa Fe, 
  New Mexico.....................................................    17
Morera, Maria Elena, Executive Director, Causa en Comun, Mexico 
  City, Mexico...................................................    21
Vivanco, Jose Miguel, Director, Americas Division, Human Rights 
  Watch, Washington, DC..........................................    19
Wasden, Lawrence G., Attorney General, State of Idaho, Boise, 
  Idaho..........................................................    15

                         QUESTIONS AND ANSWERS

Responses of David T. Johnson to questions submitted by Senators 
  Feingold and Coburn............................................    29
Responses of Gary K. King to questions submitted by Senator 
  Coburn.........................................................    66
Responses of Lawrence G. Wasden to questions submitted by Senator 
  Coburn.........................................................    70

Questions submitted by Senators Feingold and Coburn to Lanny A. 
    Breuer (Note: Responses to questions were not received as of 
    the time of printing, October 15, 2012.)                         73

                       SUBMISSIONS FOR THE RECORD

Breuer, Lanny A., Assistant Attorney General, Criminal Division, 
  U.S. Department of Justice, Washington, DC, statement..........    78
International Center for Transitional Justice, New York, New 
  York, statement................................................    94
Johnson, David T., Assistant Secretary, Bureau of International 
  Narcotics and Law Enforcement Affairs, U.S. Department of 
  State, Washington, DC, statement...............................    99
King, Gary K., Attorney General State of New Mexico, Santa Fe, 
  New Mexico, statement..........................................   114
Latin America Working Group Education Fund, Washington, DC and 
  Washington Office on Latin America, Washington, DC, May 17, 
  2010, joint letter.............................................   121
Latin America Working Group Education Fund, Washington, DC, May 
  17, 2010, memo.................................................   123
Morera, Maria Elena, Executive Director, Causa en Comun, Mexico 
  City, Mexico, statement........................................   132
Vivanco, Jose Miguel, Director, Americas Division, Human Rights 
  Watch, Washington, DC, statement...............................   136
Wasden, Lawrence G., Attorney General, State of Idaho, Boise, 
  Idaho, statement...............................................   147


       DRUG ENFORCEMENT AND THE RULE OF LAW: MEXICO AND COLOMBIA

                              ----------                              


                        WEDNESDAY, MAY 18, 2010

                               U.S. Senate,
          Subcommittee on Human Rights and the Law,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senator Durbin.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good morning. This hearing of the 
Judiciary Committee's Subcommittee on Human Rights and the Law 
will come to order, and the title of the hearing today is 
``Drug Enforcement and the Rule of Law: Mexico and Colombia.'' 
After a few opening remarks, we will recognize any Senators in 
attendance and then turn to our panel of witnesses.
    In the Human Rights and the Law Subcommittee, we have 
learned that effective law enforcement and the rule of law go 
hand in hand. Contrary to many Hollywood depictions of police 
violence, human rights violations undermine efforts to combat 
drug trafficking and other organized crime.
    Human rights protections from law enforcement abuses are 
embedded in our Constitution and Bill of Rights. For years, our 
Government has sought to export those principles to other 
countries.
    Though hundreds of millions of dollars have been spent on 
these efforts, there has been precious little Congressional 
oversight. In fact, this is the first Congressional hearing to 
focus specifically on U.S. rule of law assistance to foreign 
drug enforcement efforts.
    It is logical to begin our oversight with Mexico and 
Colombia, which have received the bulk of U.S. rule of law 
assistance and which are the source of most illegal drugs in 
the United States.
    More than a year ago, in March of 2009, I chaired the first 
hearing of the Crime and Drugs Subcommittee in the 111th 
Congress, which focused on the Mexican drug cartels. The 
situation was so dire at the time that the military was 
deployed into regions of Mexico, such as Ciudad Juarez, where 
law enforcement was no longer able to maintain order.
    It is understandable that some view this as simply a 
quantitative problem--too many criminals and too few police--
but, as we will learn today, it is more than numbers that drive 
this move to a military alternative. And the military in Mexico 
in many instances operates with virtual impunity, resulting in 
limited success stemming drug violence and human rights abuses 
that often rival and surpass the corruption of the law 
enforcement system they were sent to replace.
    Over a year after the military deployment, the death toll 
from drug-related violence in Mexico has grown worse. Despite 
the military presence, the bloodshed in Ciudad Juarez has 
surged, with over 2,600 murders just last year, an increase 
from approximately 1,600 in the year before.
    Earlier this year, the military handed over control of the 
city to the elite Federal police forces. Sadly, these 
developments come as no surprise. As I said at an earlier 
hearing, military occupation ``is not a long-term fix. 
Investigating and prosecuting drug-trafficking networks is 
fundamentally a law enforcement challenge.''
    In Colombia, the U.S. Government has partnered with the 
Colombian Government for over a decade to make significant 
security gains and disrupt drug-trafficking operations.
    Despite these extensive efforts, there are still 
significant challenges in developing an effective judicial 
system and preventing human rights abuses in Colombia. The 
baseless prosecutions of many human rights defenders and the 
``false positive'' cases, where innocent civilians were 
executed by the military and passed off as rebel fighters 
killed in combat, are just two examples.
    In the absence of an effective and fair criminal justice 
system in both Mexico and Colombia, we have relied on the 
extradition of drug traffickers to the United States as a 
short-term measure to disrupt drug trafficking. Since 2002, 
Colombia alone has extradited over 900 suspects to the United 
States.
    While extradition can be effective in the short term, it is 
not a long-term solution to illegal drug trafficking. It can 
have other negative effects as well. For example, many of the 
paramilitary leaders extradited to the United States in 2008 
were also participating in the justice and peace process in 
Colombia, in connection with their involvement in serious human 
rights atrocities. This process has since languished.
    Ultimately, prosecutions in the United States are no 
replacement for the ability to arrest, convict, and detain drug 
traffickers in Mexico and Colombia. And developing strong 
judicial systems and respect for human rights requires long-
term commitment.
    Let us be clear. Combating drug trafficking in Mexico and 
Colombia is a vital U.S. national security interest. According 
to the Justice Department, Mexican drug cartels are active in 
every State and in more than 230 American cities. And while 
cocaine production fell to an 11-year low in 2009, Colombia 
remains the world's largest cocaine producer.
    We cannot ignore as well our own responsibility in the 
United States for the drug trafficking and violence in Mexico 
and Colombia. As I noted at last year's hearing, ``The 
insatiable demand for illegal drugs in the United States keeps 
the drug cartels in business.'' And, according to ATF, more 
than 90 percent of the guns seized after raids or shootings in 
Mexico have been traced to the United States, not to mention 
the huge sums of money that are being sent from this drug trade 
in the United States down to these countries.
    I look forward to hearing from our witnesses about what 
Congress can do to contribute to collaborative efforts by U.S., 
Mexican, and Colombian law enforcement to defeat these drug 
cartels.
    We are going to turn to our first panel here, and each of 
the witnesses will have 5 minutes for opening statements before 
questions are asked. And I am going to swear them in at this 
point, which is the custom of this Committee. I would ask Mr. 
Breuer and Mr. Johnson to please stand.
    Do you affirm that the testimony you are about to give 
before the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Breuer. I do.
    Mr. Johnson. I do.
    Chairman Durbin. Thank you. Let the record reflect that 
both witnesses answered in the affirmative.
    Our first witness, Lanny Breuer, is Assistant Attorney 
General of the Justice Department's Criminal Division. He 
oversees the Department's efforts to promote the rule of law 
internationally. Previously, Mr. Breuer was a partner in the 
law firm of Covington & Burlington.
    This is Mr. Breuer's third appearance before us in a little 
more than a year. I thank you for coming and helping us with 
these hearings.
    Just this month, Mr. Breuer established the Human Rights 
and Special Prosecutions Section, the first ever office in the 
Justice Department dedicated to investigating and prosecuting 
human rights violations. I am proud to say that this new 
division was a product of efforts by Senator Coburn and myself 
and this Committee. Thank you for joining us.
    We also are going to have David Johnson, Assistant 
Secretary of the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs. He oversees the State 
Department offices responsible for law assistance to Mexico and 
Colombia. Previously, Mr. Johnson served as Deputy Chief of 
Mission for the U.S. Embassy in London and Afghan Coordinator 
for the United States. He received his B.A. from Emory 
University, and we thank him for being here.
    Let us open with Mr. Breuer. Please give us your statement, 
and, of course, your entire written statement will be made part 
of the record.
    Please proceed.

STATEMENT OF HON. LANNY A. BREUER, ASSISTANT ATTORNEY GENERAL, 
CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Breuer. Good morning, Mr. Chairman. First, on a 
personal note, I do want to thank you and Senator Coburn for 
your steadfast support for the Human Rights and Special 
Prosecution Section. Without you, we would not have been able 
to do this, and so from the bottom of my heart, thank you.
    I also thank you, Mr. Chairman, for your invitation to 
address the Subcommittee on the Department of Justice's work 
with our partners in Mexico and Colombia to advance the rule of 
law and strengthen the criminal justice systems of those 
countries. The stakes could not be higher--either for Mexico 
and Colombia, or for the United States. Our national security, 
no less than that of those countries, depends upon our joint 
work to advance the rule of law and, by so doing, to defeat the 
drug-trafficking organizations that threaten the safety of all 
our citizens.
    The role the Department of Justice plays in advancing the 
rule of law worldwide is perhaps less well known than our 
criminal investigations and prosecutions. But the two sides of 
our work form part of a single strategy. Crime and terrorism 
increasingly know no borders, and without strong, stable, and 
trustworthy foreign law enforcement partners, we cannot hope to 
defeat transnational crime.
    This message was brought home to me again last week during 
my visit to Mexico City. There I met with the courageous men 
and women of the Department of Justice, who, with their 
colleagues from other U.S. Government agencies, are working 
with their Mexican counterparts not simply on criminal cases 
and investigations, but on Mexico's ambitious steps to revise 
its legal system and to fulfill the promise of the Merida 
Initiative. In my testimony today, I would like to pay tribute 
to their work, and that of their colleagues engaged in similar 
endeavors around the globe.
    The Department of Justice has been engaged in rule of law 
work in Colombia for more than 10 years. During that time, and 
particularly under Plan Colombia, our Federal prosecutors, 
agents, and police experts have played a key role in working 
with Colombia on its ambitious commitment to reform its legal 
system and to firmly establish the rule of law.
    The scope of the work done by the Justice Sector Reform 
Project in Colombia has been staggering, and the results have 
been equally impressive. At the highest level, our prosecutors 
have assisted Colombia as it has transformed its legal system 
from an inquisitorial one to an adversarial one. This new 
system has demonstrated its promise by significantly increasing 
the number of convictions and decreasing the time to resolve 
the cases. And the Department of Justice also has been 
intimately involved in the practical implementation of 
Colombia's new criminal procedure code. With State Department 
funding over a 10-year period, DOJ has trained over 100,000 
police, prosecutors, judges, forensic experts, and protection 
personnel in areas such as crime scene management, trial 
techniques, evidence, charging decisions, police/prosecutor 
cooperation, and the use of forensic evidence. The result is 
that Colombia has become a true partner in our fight against 
these crimes.
    The Department of Justice is now also deeply involved in 
the rule of law work that Mexico has undertaken under the 
Merida Initiative, a multi-year program that aims to improve 
law enforcement capabilities to identify and disrupt and 
dismantle transnational drug-trafficking organizations and 
organized crime. We currently have a number of senior Federal 
prosecutors stationed in Mexico City to work on rule of law 
issues with their Mexican counterparts. As in Colombia, our 
work in Mexico runs the gamut from high-level advice on 
criminal code reform--as Mexico moves forward on its own 
decision to create a more adversarial system--to practical 
training on investigations and prosecutions.
    In 2009, working with U.S. Federal law enforcement agencies 
and the Department of State, we trained nearly 5,500 
individuals at all ranks--at the state and Federal level--and 
in the executive and judicial branches.
    Mexican prosecutors, in turn, are working with our 
Department of Justice prosecutors on case development, evidence 
collection, trial advocacy, money laundering, and asset 
forfeiture. Particularly through the work of vetted units, our 
goal is to ensure that Mexico is a true partner in this fight.
    In sum, working with Mexico and Colombia to build the rule 
of law--and by so doing to fight the drug cartels and the 
violence associated with them--is a top priority of the 
Department of Justice. I am so proud of the men and women who 
have committed themselves to this work, and I thank you, Mr. 
Chairman, for the opportunity to discuss their efforts, which 
make the citizens of all our countries safer.
    I will, of course, be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Breuer appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Breuer.
    Mr. Johnson.

STATEMENT OF HON. DAVID T. JOHNSON, ASSISTANT SECRETARY, BUREAU 
 OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
             DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Johnson. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify this morning on drug enforcement and the 
rule of law in Mexico and Colombia.
    As you mentioned in your introduction, as the State 
Department's Assistant Secretary for International Narcotics 
and Law Enforcement Affairs, I oversee foreign assistance that 
supports counternarcotics police training and justice support 
programs around the world, including in the Western Hemisphere.
    Anyone looking at the news from south of our border knows 
that drug-related violence is spiraling out of control, within 
drug cartels, between drug cartels, and against drug cartels. 
Drug-trafficking organizations have shown time and again that 
they have no decency or respect for the law or for human life, 
and the increasingly depraved acts of violence we are currently 
seeing in Mexico are emblematic of these cartels' historic 
disregard for anything but profit.
    I cannot overstate the impact that this kind of violence 
and crime can have. The individual tragedies we hear about on a 
near daily basis, such as innocent lives lost in cartel cross 
fire, rip the fabric of families and communities. This 
undermines public security and weakens governing institutions.
    In Colombia and Mexico, however, we have seen great 
determination to address that downward slide, and this is 
perhaps one of the most, if not the most, important elements in 
fighting to restore the rule of law.
    In Colombia, former President Pastrana recognized the need 
to intensify Colombia's efforts to stop the cartels. He 
provided the political commitment necessary to get Plan 
Colombia off the ground in close coordination with and with 
assistance from the United States. His successor, President 
Uribe, has expanded this effort through democratic security and 
national consolidation policies that seek to address 
insecurity, narcotics trafficking, and a lack of economic 
opportunities.
    We have also been fortunate in Mexico to launch the Merida 
Initiative. We have seen in a relatively short period of time a 
change in the attitudes of the Mexican body politic that 
reflect an understanding that this issue must be faced 
collectively.
    One of the natural outgrowths of leadership that we saw in 
Colombia was ownership. The Colombians were partners during the 
design of Plan Colombia and have remained so during its 
implementation. Mexicans are equally engaged in leading 
Merida's planning and implementation process, and bilateral 
meetings are held on a monthly basis to discuss progress on 
each of the 46 Merida projects, which are extensively 
negotiated each year.
    Next week, in Mexico City, we plan formally to open a joint 
center to administer Merida, a place where Mexicans and 
Americans work side by side to advance this comprehensive law 
enforcement reform program. In both Colombia and Mexico, the 
U.S. Government has played a supporting role, seeking to 
complement strategies rather than developing ones to compete 
with the government's there.
    As security has begun to be established in Colombia, for 
example, it became possible to address other societal factors 
contributing to narco trafficking and lawlessness. That 
progression allowed the Colombian Government to expand social 
services to former conflict regions and establish stronger 
institutions. This same approach is at the heart of our effort 
in Mexico.
    Our experience in Colombia emphasized the importance of 
adapting to the changing environment, to recognize and to 
embrace opportunities when they present themselves. 
Counternarcotics programs must constantly evolve from the point 
where they start to confront and counter the threat which also 
adapts constantly.
    In Colombia, for example, criminal gangs have emerged to 
fill a void in the drug-trafficking network left by the 
demobilization of paramilitary organizations and the weakening 
of the FARC. Tackling these new criminal organizations requires 
adjustments in how we investigate and prosecute their criminal 
behavior while simultaneously maintaining pressure against the 
FARC.
    In Mexico, we were approached almost 2 years ago to support 
a new type of investigator cadre specially formed to confront 
new narcotics threats and associated crimes. I can recall 
sitting in a room with my Justice Department and other 
interagency colleagues when we were asked about this to produce 
training materials, to produce officials and trainers within 
about 90 days for 5,000 new Mexican investigators, and we 
looked at each other and we said, ``This is impossible, and we 
have to do it.'' And we did. We were able to recruit U.S. 
Federal, State, and local law enforcement trainers to address 
this need in an extremely short amount of time.
    These examples represent mutually beneficial opportunities. 
In both cases, we adjusted our programmatic plans to join 
specific Colombian and Mexican goals in order to advance our 
shared one.
    For us, these are win-win situations that we need 
continuously to find and act upon as the environment and our 
programs, such as Plan Colombia and the Merida Initiative, 
continue to evolve.
    Another important lesson learned in Colombia that we are 
applying in Mexico is recognition that there is no single 
silver bullet to the problems created. We must be flexible and 
maintain a long-term vision focused on working with our 
partners to strengthen their own institutions.
    Colombia's judicial transformation to the accusatorial 
system took 4 years. Mexico's similar path is likely to take 
even longer. We must remain mindful that the payoff for our 
collective investment will only be realized if we take a long 
view.
    The lessons we learned from our experiences in Colombia, 
the need for public support, the need to establish security 
that creates space for a comprehensive, coordinated Government 
effort, the need to demonstrate adaptability, to take a long-
term view in creating and entrenching solutions--all of these 
are reflected in our efforts in Mexico.
    We have seen significant positive change in Colombia. Much 
of that change is attributable to the bilateral plan that we 
worked on together for 10 years. We have also witnessed 
Colombia's ascendancy to become a regional leader in 
counternarcotics as well as police training. Colombia's unique 
experiences have made it the logical choice to provide advisers 
and trainers. In fact, Colombia has already trained 
approximately 5,800 Mexican law enforcement and court officers 
on a variety of operational and judicial topics. We applaud 
this kind of regional collaboration.
    Mexico's recent high-profile seizures and arrests are clear 
signs that their effort is moving in a positive direction. 
Mexico's determination, however, is matched by the drug-
trafficking organizations' determination to maintain their 
territorial control and profits. We will continue in our 
commitment to the fight against these cartels and to support 
our partners in their efforts.
    Thank you, Mr. Chairman. I look forward to addressing your 
questions.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Chairman Durbin. Thanks for your testimony. I thought about 
this hearing this morning with the arrival of President 
Calderon this week, and just for the record, it is, in fact, 
coincidental that we are holding the hearing this week. We had 
hoped to have it earlier but could not because of a scheduling 
difficulty.
    I also wanted to note that I think it is disingenuous of 
this Committee, and perhaps of Congress, maybe the American 
people, to stand in critical judgment of the situations in 
Mexico and Colombia without first conceding that our own 
failure when it comes to drug laws and establishing cohesive 
and effective ways to reduce the demand for drugs has created 
this situation. In fact, it is our U.S. dollars and our U.S. 
weapons that are fueling this war-like situation in Mexico and 
instability in many other countries. So let me say at the 
outset, from my personal point of view, we have a special 
responsibility not just to stand in criticism of what is 
happening in those countries but to acknowledge our own 
shortcomings and failures.
    I would like to ask the first two witnesses, as I step back 
and try to look at this, not being as expert as you are, it 
seems to me that several things are at work here, not only the 
violence of the drug cartels but also a question as to whether 
or not the system of justice, for example, in Mexico has 
failed, is going through a fundamental transition from one 
form, the Napoleonic form, to the more adversarial form we are 
familiar with in the United States. Is that a fair analysis of 
the starting point of this conversation, Mr. Breuer?
    Mr. Breuer. Mr. Chairman, I think it is. I think that our 
friends in Mexico and President Calderon really are showing 
extraordinary courage and a remarkable commitment, and we 
cannot say enough about that. But there is absolutely no 
question that as Mexico confronts this remarkable national 
threat and challenge, it has to reform its judicial system. It 
does have to move to an adversarial system. Right now, the 
inquisitorial system of Mexico is too late in time. It takes 
too long. The conviction rate is at about 2 or 3 percent. And 
there has to be a shift to the adversarial system, which is a 
more nimble system.
    That is why it is so critical for us in the United States 
and for us at the Department of Justice to be working with our 
partners hand in hand and teaching them as they move forward. 
To Mexico's credit, they have made the decision to move 
forward, and they have a few years to do it. We at the 
Department would like them to move as quickly as possible, and 
we remain ready and able with our prosecutors and others to be 
there for them as they make the switch. But they have to make 
that switch.
    Chairman Durbin. I would ask either one of you, if the 
conviction rate in Mexico is 1 to 3 percent of those arrested 
for drug trafficking and the conviction rate in Colombia is 
closer to 60 percent, is there a lesson here? Has the Colombian 
nation gone through a transition to more effective law 
enforcement?
    Mr. Breuer. I think that is right. Colombia, when it began, 
Mr. Chairman, had a conviction rate also at what Mexico's is, 2 
or 3 percent. And really, because of Colombia's commitment and 
their change in process and the work of our people in the 
United States, our prosecutors, other people from agencies, it 
happened. To my right is Paul Vaky who, Mr. Chairman, is really 
in charge of the Department's efforts in Colombia, and he and 
other heroes like himself have really worked with our 
counterparts in Colombia to make that transition from a 2- or 
3-percent conviction rate to now a conviction rate well in the 
60's.
    Chairman Durbin. I recall the only trip I have made to 
Colombia many years ago with Congressman Jack Reed, and we met 
with President Pastrana and his cabinet at the equivalent of 
their White House. And President Pastrana said, ``Just for 
illustration to you as American Senators as to what life and 
justice are like in Colombia, I would like each member of my 
cabinet to tell a story that they might have of their own 
personal kidnapping or the kidnapping of someone in their 
family.'' Every single person sitting there had either been 
kidnapped or someone in their family had been kidnapped, which 
is a context I have never forgotten in terms of justice.
    Now, when we talk about the adversarial system in the 
United States, we envision judges presiding over courtrooms and 
prosecutors standing publicly and making the accusations with 
defense attorneys there as well. It struck me, having seen that 
situation in Colombia and having met a number of people who had 
been terrorized by the drug cartels in Mexico, that this is a 
dangerous transition from the old Napoleonic inquisitorial 
approach to the more public adversarial approach, and it is 
understandable that people do not just stand up and volunteer 
to be judges in that context.
    Can you comment on that aspect of the changes taking place?
    Mr. Breuer. Of course, Mr. Chairman. Well, first of all, in 
the year that I have been the Assistant Attorney General, what 
has really struck me on a personal note is the number of heroes 
both here in the United States and in other countries. Next 
week, for instance, I have the honor of going to Italy where 
the Italians every year celebrate the life of Giovanni Falcone, 
the prosecutor who gave his life to combat the Mafia, and, 
frankly, because of him, he in no small part galvanized the 
Nation in its successful efforts. So right now there is no 
question in Colombia and in Mexico there are many, many heroes.
    One of the absolute, essential ingredients to the change is 
not just individual heroism but a commitment by the Government 
and also, frankly, on a very practical level the specialized 
investigative units that are vetted. We need to have vetted 
units of prosecutors, investigators, and, indeed, often even to 
help with the judges, to ensure, one, that we protect judges 
but, two, that we have abilities to prevent the pervasive 
corruption that these drug-trafficking organizations effect. 
There has to be a comprehensive approach. From the Department 
of Justice's perspective, it has to be a colleague-to-colleague 
approach where our prosecutors team up, our investigators team 
up. We send judges, we send prosecutors, and the like. It is a 
comprehensive process, but that is our view of how you have to 
deal with this.
    Chairman Durbin. I would like to ask you, Mr. Johnson, I 
would like to hear your take on it, if this analysis is 
accurate. But it would seem that, as I said in my opening 
statement, moving in military forces in an effort to try to 
stop the drug cartels is not just a concession, that there are 
more potential criminals than there are law enforcement 
officials. But in the case of Mexico, at least, is the 
suggestion that the basic law enforcement system is not 
functioning, that the investigation of the crimes, the 
prosecution of the crimes was not taking place, and that they 
are trying through martial law to control a situation.
    I note that in some areas, like Juarez, they have moved 
beyond the military to the so-called elite Presidential forces 
or the Federal forces, and I do not know if that is an 
indication that the military was not enough.
    Can you talk to me about this quantifiable issue as opposed 
to the underlying question of whether the corruption in law 
enforcement has led to this progression?
    Mr. Johnson. I think it is clear that the law enforcement 
and judicial institutions in Mexico were not sufficient to deal 
with the challenge that they face from these well-organized 
drug cartels, that, as you mentioned in the statement that you 
made after our opening statements, is fueled significantly by 
demand in the United States for narcotics.
    The President of Mexico made the determination, when he 
really realized the endemic nature of what he was dealing with, 
that he had to use the institutions that he had in order to 
start this process as rapidly as possible. The Mexican military 
has a place in Mexican society of respect, and it has some 
capabilities that certainly its law enforcement institutions 
did not have at the time and are in the process of acquiring. 
So there was certainly significant value to the presence on the 
street the military forces can have in order to deter brazen 
activities as they took place.
    On the other hand, just as any military, the Mexican 
military is not trained law enforcement personnel. They do not 
have the training for the investigatory techniques, for 
evidence gathering, and participation in the judicial process, 
which ultimately leads to conviction and incarceration.
    At the same time that the Mexican military was deployed, 
the Mexican Government accelerated a process that they already 
had underway to reform their Federal institutions of police, 
and they have been building that up as rapidly as they could 
over time. This institution is what--it is not called a 
Presidential Guard, but the Federal security institution has 
been deployed now in Juarez after the military has pulled back.
    We believe they are beginning to have an impact. They have 
much better control of where the police authorities are on the 
ground, the ability to track their vehicles, to deploy them in 
ways to investigate and deter crime, in ways that they did not 
have, and using some technologies and techniques that we have 
jointly helped them develop.
    What we still do not have yet in sufficient numbers and we 
do not have in terms of the change in the judicial process is 
that we do not have the type of prosecuting and judging 
contingent there that is ultimately going to be needed as the 
crimes are detected and need to be prosecuted.
    We have an additional challenge in Juarez, and that is that 
Mexico is a Federal state and the states have been moving 
toward an accusatorial process individually and in some 
instances quickly. In particular, the State of Chihuahua, in 
which Juarez is located, is the only Mexican state that has 
fully transformed to an adversarial process. So you have an 
adversarial process and the type of investigation that that 
calls for and the gathering of evidence going on. At the same 
time for Federal level crimes, you still have an inquisitorial 
process and a quite distinct and different process of gathering 
evidence there.
    So that is going to be a challenge for them until they have 
the fully formed, Federal-level adversarial process developed, 
and as we all recognize, that is going to take some time.
    But I think we do see a commitment of resources and a 
commitment of political will in Juarez over the course of the 
last several months that is quite impressive.
    Chairman Durbin. But there is another aspect to this which 
I would like to ask you about, and it relates to the testimony 
in the next panel from Mr. Vivanco of Human Rights Watch, and 
that is the question of the human rights abuse record of the 
military. His investigation determined, if I have this 
correctly, that there were only three charges of human rights 
abuse by Mexico's military as part of this and only one case 
qualifies as a conviction for a human rights abuse in which a 
soldier was sentenced to 9 months in prison for killing a 
civilian by opening fire at a military checkpoint.
    There have been many allegations and evidence collected of 
torture, raping, and killing by the military in the course of 
what is happening here. I think similar things occurred in 
Colombia with the false positive cases and the like.
    So I wonder, can you tell me, can either of you comment on 
this aspect that, as they have found the law enforcement system 
inadequate to the job and moved in the military, they brought 
in with them another challenge in terms of whether or not the 
military can be expected to meet the needs of the society 
without their own abuses being investigated?
    Mr. Johnson. Just one comment I would make. We are required 
by the appropriations statutes to report on this process with 
the Mexican military and have done so. I am not in a position 
to comment on the cases that you referred to, but where we do 
think that progress needs to be made is in the transparency of 
the system for military justice so that the public can see 
justice being done more clearly.
    We have some engagement in military-to-military channels to 
provide advice and example about how our own Uniform Code of 
Military Justice operates and the ability of the public to know 
that if there are accusations against military personnel, they 
are investigated and there is a judicial process under which 
they are properly held to account, or judged not guilty if that 
is the appropriate case. And it is the transparency that we are 
really looking to help foster there.
    Chairman Durbin. In Colombia, the Attorney General's office 
is investigating over 2,000 false positive cases where innocent 
civilians were allegedly executed by the military and passed 
off as rebel fighters killed in combat. The U.N. Special 
Rapporteur on Extrajudicial Executions said, ``The sheer number 
of cases, their geographic spread, and the diversity of 
military units implicated indicate these killings were carried 
out in a more or less systematic fashion by significant 
elements within the military.'' This is in Colombia.
    Given the substantial assistance our Government has 
provided to the Colombian military, I think we have a special 
responsibility to ensure perpetrators of human rights 
violations are brought to justice.
    What can you tell me about the efforts that are being made 
in this area, Mr. Breuer?
    Mr. Breuer. Well, Mr. Chairman, as you know, I care deeply 
about the issue of human rights and the Human Rights Special 
Prosecution Section is a great representation of that.
    With respect to what is happening in Colombia, of course, 
the Colombians themselves have the justice and peace or the 
truth and reconciliation process, and for the most part, the 
country is moving forward in that process. Obviously, the AUC 
has been a part of that.
    We at the Department of Justice, what we can do and what we 
have done is work as hard as we can with our friends in 
Colombia to make this as robust a process as we can, whether it 
is training our counterparts in these investigations, giving 
them the tools, helping them understand how investigations and 
prosecutions could go forward, and making it clear that from 
the Department of Justice's perspective, the justice and peace 
process must go forward, is absolutely essential, and something 
we support dramatically.
    Moreover, to an unprecedented degree, to the degree that we 
have extradited, because of drug cases, individuals who have 
been a part of that process, we have made them available to 
this process. We have done that through video link. We have 
made that through individual meetings. And, indeed, there 
probably has never been that level of cooperation in such a 
system before between the United States and another country.
    So we are very supportive of this. We understand that these 
are steps being taken, and we believe that President Uribe and 
his team very much have adopted this.
    Chairman Durbin. So have there been examples of 
extraditions from Mexico to the United States for prosecution?
    Mr. Breuer. There have. In Mexico, we have an unprecedented 
level of cooperation with the Mexicans. This past year, 2009, 
we had over 100 extraditions from Mexico to the United States.
    Now, it should be clear, and when I was with my friends in 
Mexico last week, I made it clear that we want to continue 
this. We think it is an essential piece of our partnership with 
Mexico, and we want to, of course, extradite those who are most 
involved in the drug-trafficking organizations. But under 
President Calderon, there is just no question that we have had 
more extraditions and more collaboration than we have ever had 
before.
    Chairman Durbin. So this is helpful in the short term, but 
do you agree that ultimately it is much more effective if 
Mexico and Colombia were to arrest and prosecute these drug 
cartel leaders themselves?
    Mr. Breuer. Absolutely. I do think so, but I think we have 
to understand that extraditions are a key piece. If we by 
extradition of high-value individuals are able to take some of 
the pressure off of our friends, and as Mexico is going through 
the transition--and Colombia is much, much farther along, of 
course. If we in our robust system can take these people, try 
these people, and convict them and put them in jail for long 
periods of time, it allows our friends in Mexico, for instance, 
to devote more resources to others. And that is why we think 
that we at the Department have to play a critical role in 
helping.
    And so, sure, at some point extraditions may be less 
important, but, of course, as you pointed out, Mr. Chairman, 
these were the same individuals who are permitting drugs to 
come into the United States. We have a vital interest 
ourselves, and working collaboratively with our friends, we 
think it is an essential piece of a comprehensive plan to 
challenge and attack the cartels.
    Chairman Durbin. I would like to ask you both to step back 
for a second, if you can, or if you will, and comment on a 
statement that is made in the official submission by one of our 
next witnesses, Mr. Wasden of Idaho. I would like to read it 
because it struck me this morning as I prepared for this.
    He wrote, ``Mexican citizens are rightfully proud of their 
heritage, their history, and their country. Those I have spoken 
to would prefer to stay in Mexico. But the lack of personal 
safety and the lack of jobs drives them across our southern 
border. The U.S. is absolutely entitled to and must have a 
secure border, and I am not here to discuss the advisability of 
fences or other border devices. But the forces which drive 
Mexicans across our southern border are more powerful than 
technological devices. If you and I faced the problems our 
southern neighbors face, we would do the same thing they do. We 
would vote with our feet. We would not stand for such 
conditions in our country.''
    I think that is an interesting observation in light of our 
National debate about immigration, and I would like to ask each 
of you whether you agree with his conclusions or believe that 
as we view this border and how to make certain that it is 
secure, how much needs to be invested in making certain that 
there is professional law enforcement and a rule of law south 
of the border as well as in our country.
    Mr. Breuer. Mr. Chairman, I think it is absolutely critical 
that we do have law enforcement in Mexico, that we help our 
friends in Mexico have the institutions that can protect their 
people, that their people can live in peace, that with living 
in peace they can have economic prosperity. And, of course, if 
we do not do that and if our Mexican friends cannot achieve 
that, there is no fence large enough to prevent the very forces 
you are describing. We have to have a comprehensive approach. 
We obviously have to have law enforcement. We have to secure 
our borders. But we absolutely have to help our friends in 
Mexico have vital and effective institutions.
    Chairman Durbin. For the record, the Mexican-U.S. border, 
almost 2,000 miles long, is the most frequently crossed 
international border in the world. Two hundred and fifty 
million people cross annually. One-half million cross 
illegally. So when there are folks who talk about sealing the 
border, it is like saying, well, we are going to go out to I-95 
and we are going to guarantee that no narcotics and no guns are 
going to pass illegally on Interstate 95 today. Imagine the 
challenge that would pose to any governmental unit trying to 
enforce it.
    That is not an excuse for lack of effort or focusing 
efforts, but I think what you have said, Mr. Breuer, is that we 
need to look beyond just the technology and the obstacles to 
the situation south of the border that is creating this force 
as people move north.
    Mr. Johnson, would you like to comment?
    Mr. Johnson. I have had the privilege in my diplomatic 
career to live on the Mexican border and on the Canadian 
border, and I find border communities extraordinarily vibrant 
because of that opportunity to share each other's culture. I 
think that is something that enriches our Nation immeasurably.
    And so as part of the effort that we have underway, within 
and beyond Merida, we would aim to create a border which 
facilitates the type of exchanges that are lawful, that enrich 
that culture and provide us with the ability to deter and 
defeat those which would bring crime into the United States and 
would undermine the rule of law further in Mexico.
    We do need, it is in our own very selfish interest to help 
Mexico develop the institutions that it needs, both law 
enforcement and dispute resolution, both criminal and civil, so 
that it can support the kind of economy that it needs.
    There is immigration going on in Mexico now which is within 
Mexico and away from some of the areas of high crime, which 
really shows that there is a responsiveness on the part of the 
public to public safety, and it would be in our interest and in 
Mexico's interest to work together and we are working together 
to address this problem.
    Chairman Durbin. Thank you for your testimony, both of you. 
I know that you have longer statements. They will be made part 
of the record, and if we have any follow-up questions, we will 
send them along, if you could answer them in a timely way. I 
appreciate your being here.
    Mr. Breuer. Thank you, Mr. Chairman.
    Chairman Durbin. I would like to invite the second panel. 
We have four distinguished witnesses here who will share their 
views. I will introduce them as they are taking their places 
here.
    Our first witness is Lawrence Wasden, the Attorney General 
of Idaho. Mr. Wasden has over 20 years of experience in the 
Idaho Attorney General's office. He previously served as chief 
of staff and deputy chief of staff. He is past Chairman of the 
Conference of Western Attorneys General, where he helped found 
the U.S.-Mexico Alliance Partnership to strengthen cooperation 
between State officials in the United States and Mexico. He 
holds a bachelor's degree from Brigham Young University and a 
law degree from the University of Idaho. We thank him for 
journeying from Boise to be here today.
    Our next witness following Mr. Wasden will be Gary King, 
the Attorney General of New Mexico. He previously served in the 
New Mexico House of Representatives, and as vice chair of the 
Conference of Western Attorneys General. Mr. King has 
participated in the U.S.-Mexico State Alliance Partnership that 
Attorney General Wasden launched. Mr. King holds a bachelor's 
degree from New Mexico State University, a doctorate in organic 
chemistry from the University of Colorado at Boulder, and a law 
degree from the University of New Mexico. I thank him for 
coming from his beautiful city of Santa Fe to be with us.
    Our next witness, after these two, will be Jose Miguel 
Vivanco, director of the Human Rights Watch's Americas 
Division. He previously worked as an attorney for the Inter-
American Commission on Human Rights at the Organization of 
American States. He has also been an adjunct professor at the 
well-respected Georgetown University Law Center and the School 
of Advanced International Studies at Johns Hopkins University. 
He studied law at the University of Chile and Salamanca Law 
School in Spain, and holds an LLM degree from Harvard Law 
School. Mr. Vivanco, thank you for being here.
    Our final witness, Maria Elena Morera, is the director of 
Causa en Comun. She is a prominent civil society advocate in 
Mexico. Previously, she was the president of Mexico United 
Against Violence, an anti-crime advocacy organization. Ms. 
Morera, you joined Mexico United Against Violence following the 
kidnapping of your husband, so we know the issue of violence is 
very personal to you. We thank you for joining us today, and I 
know that you have a friend with you in case some of the 
translation becomes difficult. But you did very well when we 
said hello this morning.
    So I would ask all four witnesses to please stand and be 
sworn. Do you affirm the testimony you are about to give before 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Mr. Wasden. I do.
    Mr. King. I do.
    Mr. Vivanco. I do.
    Ms. Morera. I do.
    Chairman Durbin. Thank you very much. Let the record 
reflect that the four witnesses answered in the affirmative.
    Mr. Wasden, please. We are going to give you 5 minutes for 
an opening statement. Your written statement, as with all other 
witnesses, will be made part of the record, and then I will ask 
some questions after. Proceed.

 STATEMENT OF HON. LAWRENCE G. WASDEN, ATTORNEY GENERAL, STATE 
                     OF IDAHO, BOISE, IDAHO

    Mr. Wasden. Thank you, Senator Durbin. I genuinely 
appreciate your willingness to invite me to be here with you 
today to speak about something that I find very important. One 
of the most important things I have done as Attorney General in 
my State involves my association with the Alliance Partnership, 
and the opportunity to truly make a difference in people's 
lives.
    I wanted to echo something that you said a little earlier 
and that is, in this country we buy more illegal drugs, and we 
pay more for those illegal drugs, than any other country on 
Earth. There is a parade of drugs coming north, and there is a 
parade of guns and money going south. This is not just a 
Mexican problem, nor is this just an American problem. This is 
a problem for both countries and we both have to work together 
in order to resolve it.
    In my written testimony I talk about how I became aware 
about the need to become involved, and I want to repeat that 
story. I was asked as the Chairman of CWAG to speak to a 
delegation from Mexico, so I traveled to California and met 
with them. I had a really great speech. It was terrific. But, 
as I sat listening, I realized that my speech was way too 
theoretical about justice. What I needed to talk about, and 
what I needed to hear about, were the true boots-on-the-ground 
kind of issues that my colleagues in Mexico were dealing with.
    As I finished my speech, there was a woman in the audience 
who came running up to me in the hallway. She was crying and 
she was speaking Spanish very rapidly. I do not listen to 
Spanish very rapidly, and I did not understand what she was 
saying. Some interpreters came down the hallway and helped 
translate what she was saying, which was, ``We need you. We 
need you.'' She told me she was a reporter for a newspaper and 
that she had been kidnapped and tortured because she had been 
reporting on a child sexual abuse ring that was operating in 
her city. The Governor of her state had directed the police to 
kidnap her in order to shut her up in terms of reporting on the 
children who were being sexually abused. The reason the 
Governor ordered her kidnapping was because his friend was the 
individual running the child sexual abuse ring.
    I will never forget the look on her face, but that was 
really my introduction to the need for us to be involved here. 
I was kind of astounded by her story. It seemed outlandish, but 
as I began to do some research and understand what was 
happening in Mexico, I realized her story was not all that 
unusual.
    We then traveled to Mexico and I met with a number of 
individuals from the Mexican Government, the U.S. State 
Department, and USAID. Every single Mexican national that I 
spoke to had a personal story of violence. Every single one of 
them. As you mentioned, maybe it did no involve them 
individually, but it involved some member of their family. They 
spoke of something called an ``express kidnapping'' where you 
are kidnapped, forced to take out the daily limit on your ATM, 
held overnight, forced to take out the next day's daily limit, 
and then you are released. You and I get up in the morning and 
we do not have the slightest clue what that kind of an 
environment would be like.
    I have tremendous respect for my colleagues in Mexico 
because they are willing to stand up with great risk to their 
own lives, to stand up for justice.
    I was traveling in Italy with a delegation from Mexico. We 
were talking about the issues regarding prosecution of 
organized crime, and we were in a community called Stilo. The 
Mexican citizens there told us how upset they were with 
President Calderon's basic war on the drug cartels. It was a 
very interesting conversation because the Italian magistrates 
responded with something that I do not think I will ever 
forget. Italian magistrates are prosecutors, they are not 
judges. The magistrates said, ``Your political will is being 
tested. What you have to expect is an increase in the frequency 
of violence and an increase in the level of that violence in 
order for you to ultimately win. If you capitulate now, you 
will never win this war.''
    I wanted to say one additional thing. I have a friend in 
Mexico whose name is Carlos Pineda. He is not associated with 
any of the law enforcement. He does have a brother-in-law who 
is an attorney and I also know him. Carlos said something very 
important to me. He said, ``Lawrence, please do not leave us. 
Please do not leave us.'' So, I look at them, and I look across 
the border, and I see friends. I see people willing to stand up 
for justice at the risk of their own lives, and I cannot leave 
them.
    I appreciate very much the opportunity to be here today and 
I look forward to your questions.
    [The prepared statement of Mr. Wasden appears as a 
submission for the record.]
    Chairman Durbin. Thanks.
    Attorney General King.

STATEMENT OF HON. GARY K. KING, ATTORNEY GENERAL, STATE OF NEW 
                  MEXICO, SANTA FE, NEW MEXICO

    Mr. King. Thank you, Mr. Chairman, and thank you for the 
introduction. I had some preliminary comments, but I think that 
the previous panel examined quite a bit what the situation on 
the border is, and I will say that I thought that that was a 
good discussion.
    What I would like to discuss today is some experience that 
we have in New Mexico, and as the previous panel said, the 
first state in Mexico that made the transition from the 
inquisitorial-based system to the adversarial-based is 
Chihuahua, which is the state to the south of New Mexico. And 
so that change started to occur about 4 years ago, and since 
that time, the New Mexico's Attorney General's office, the New 
Mexico Public Safety Department, and since the advent of the 
program that we have at CWAG, has been training prosecutors and 
investigators and crime lab personnel in Chihuahua and in other 
places. So I want to talk just a little bit about my experience 
with the State of Chihuahua because we have been working with 
the same Attorney General there in Chihuahua for the last 3\1/
2\ years, and we have had a lot of her prosecutors who have 
come to New Mexico for training, a lot of crime scene 
personnel. And I have had an opportunity to go down and examine 
the court system and their crime labs and such, and they have 
done a wonderful job of building new crime labs and building 
new courthouses, training new judges, and training prosecutors, 
and I think that they have been very effective in trying to 
deal with the overall crime problem in Mexico. And, you know, 
it is not just the drug cartels.
    I had an opportunity to watch one of the trials in 
Chihuahua and was impressed. We were going to go watch a murder 
trial, and there were so many people there watching the murder 
trial, we could not get in. So I went down the hall and watched 
a trial that related to an automobile accident, and very 
professional judges. I think that the ability of the populace 
to participate in trials and defendants to have a say on the 
stand will in the long run indeed have a great effect on 
bringing the rule of law into Mexico. And I just want to 
commend those folks in Chihuahua.
    When the other states started to make the transition, we 
had a number of Attorneys General who came to us and requested 
training, and it was clear that in order to train the number of 
people that we needed to train, we needed a much larger 
initiative. And so the Western Attorneys General, I think at 
the urging of folks in Mexico and with the help of USAID, 
developed a program that we are very proud of. The program is 
larger than just our organization. You have heard us talk about 
the alliance. There are a number of organizations in the 
alliance. It includes State treasurers, it includes the Council 
of State Governments, as well as the AGs.
    I am speeding through a little bit, Mr. Chairman, because I 
know that this is a fairly short amount of time, and if you 
want more, I will give you more information. But my office has 
been participating in Chihuahua in prosecuting what are called 
Article IV prosecutions as well. The Mexican Constitution 
allows us to prosecute crimes that were committed in the U.S. 
in Mexico under certain circumstances, and so I have a staff 
that has been working with Mexican prosecutors to carry out 
Article IV prosecutions.
    But I think that what I want to bring to your attention and 
hopefully we can talk about more is the fruit of the 
collaboration of the State governments and the Federal 
Government in the U.S. with the state governments and the 
Federal Government in Mexico. We have seen a lot of positive 
results from getting resources to the state prosecutors. And we 
are very proud of the Merida Initiative, and I support the 
Merida Initiative. But I believe that we could get a lot of 
bang for our buck if we can get some more support to those 
local governments. And through the initiative that the Western 
AGs have, we have in this fiscal year been able to train--or by 
the end of the fiscal year, we will have been able to train 
about 1,500 prosecutors and investigators to carry out those 
new trials in Mexico. And we do that through hands-on training.
    We had a training in New Mexico 2 weeks ago, and we had all 
of those folks at a facility where we could develop a crime 
scene, including--our New Mexico crime scene personnel set up 
the crime scene. They used real human blood so you get the real 
kind of splatter. They use trained people who are--they do not 
like to be called actors, but character players who play the 
criminals. And so they have to analyze the crime scene, develop 
their case, and then come and do a mock trial all in the course 
of a week. And they develop a lot of experience.
    In this last training, we had not only investigators from a 
number--five or six states, I believe, and prosecutors from 
those states, but we also had two prosecutors from the Federal 
AG's office in Mexico, too. And to see those folks working 
together and developing the collaboration, I think that is what 
it is going to take to successfully attack some of the problems 
that we have in Mexico.
    So we are very proud of our association with those Mexican 
law enforcement personnel. I think that they are doing the very 
best that they can.
    I have one other story that I would like to point out. We 
had a training in Colorado where the trainers noted that the 
investigators from Mexico were talking about the fact that at 
the end of a shift they have to take off their bulletproof vest 
and give it to the next person that was coming on for the next 
shift because they did not have enough bulletproof vests. And 
so at that training in Colorado, the Colorado folks that did 
the training made sure that everybody that left the training 
left with a bulletproof vest so that they would have their own 
vest. Those are the kinds of resources that I think can be 
leveraged in that case.
    And, finally, I want to mention--and if you would like, we 
can delve into it more later on. The four border States--
Arizona, New Mexico, Texas, and California--through a lawsuit 
that was initiated by the Attorney General in Arizona against 
Western Union have developed a settlement where there is about 
$90 million that is being allocated so that law enforcement on 
the border can work on interdiction of funds that are crossing 
the border and money laundering. And we think that that is 
going to be a very successful program that we are working on, 
and if you have questions, Mr. Chairman, I would be happy to 
address that, too.
    We feel like there is a lot of progress being made on the 
border. We do feel like it is a very long-term solution, that 
it will take 10 years, maybe 20 years. I do not know. I heard 
discussion about Colombia. But we, the Western Attorneys 
General, are very dedicated--I will be the Chairman in July-to 
pursuing this project because I think that it will bear good 
fruit.
    [The prepared statement of Mr. King appears as a submission 
for the record.]
    Chairman Durbin. Thanks a lot, Mr. King. I am trying to 
wrap my mind around the notion of a bulletproof vest as a 
going-away gift. But I certainly can understand why it is 
appropriate.
    Mr. Vivanco.

STATEMENT OF JOSE MIGUEL VIVANCO, DIRECTOR, AMERICAS DIVISION, 
               HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Vivanco. Thank you, Mr. Chairman.
    The need for more effective law enforcement is a top public 
concern in Colombia, Mexico, and many countries throughout the 
region. Too often, local leaders respond to public demand to 
get tough on crime by condoning abusive practices that not only 
undermine the rule of law by violating basic rights, but also 
fail to curb crime.
    A major reason abuses are widespread in countries like 
Mexico and Colombia is that the perpetrators are rarely brought 
to justice. Unfortunately, there is a commonplace perception 
that holding law enforcement agents accountable for their 
abuses will only help the violent mafias they must confront. 
But the opposite is true. Fuller accountability, though the 
criminal prosecution of abusive practices, forces police and 
prosecutors to do their jobs more effectively.
    One of the countries that has faced the highest levels of 
violence in the region in recent years is Colombia. In the 
context of a decades-old armed conflict, Colombia continues to 
be plagued by widespread abuses committed by irregular armed 
groups, including left-wing guerrillas and successor groups to 
right-wing paramilitaries. The Colombia military has also been 
responsible for serious abuses, including widespread 
extrajudicial killings of civilians.
    A major factor contributing to the ongoing abuses against 
civilians has been the lack of full accountability of 
perpetrators. Colombian prosecutors and judges have made 
determined and sometimes successful efforts to bring 
perpetrators to justice.
    The Colombian Supreme Court, for example, is currently 
investigating more than 80 members of the Colombian Congress 
for collaborating with paramilitaries. The Attorney General's 
Office is investigating illegal phone tapping, e-mail 
interception, and surveillance carried out by the Colombian 
intelligence service, which answers directly to the President 
of Colombia. It is also investigating cases involving 
extrajudicial executions by the army.
    One important step that Colombia has taken to strengthen 
the rule of law is a sweeping reform of the criminal justice 
system. This effort has received valuable support from the U.S. 
Government. The challenge of realizing the reform's full 
potential in terms of strengthening the criminal justice system 
and ensure due process rights remains very much a work in 
progress.
    Mexico is another country facing grave challenges in terms 
of public security and human rights. Since taking office in 
December 2006, Mexico's President Felipe Calderon has relied 
heavily on the armed forces to fight serious drug-related 
violence and organized crime. The need to improve public 
security in Mexico is absolutely clear. During the Calderon 
administration, complaints of military abuses have increased 
dramatically. Mexico's official National Human Rights 
Commission has issued a comprehensive report of more than 50 
cases involving egregious army abuses, including killings, 
rape, and torture, and the commission has reportedly received 
complaints of nearly 4,000 additional cases.
    Just 2 weeks ago, in a research mission in Tijuana, Human 
Rights Watch found credible allegations of the systematic use 
of torture by the military, including more than 100 cases since 
2009 of individuals who allege they were arbitrarily detained, 
transported to military bases, and tortured to extract 
confessions.
    An important reason military abuses persist is that they go 
unpunished. And they go unpunished in significant part because 
most cases end up being investigated and prosecuted by the 
military justice system, which lacks the independence and the 
impartiality needed to handle these cases. According to the 
Mexican Government, only three soldiers have been found guilty 
of human rights crimes committed during the Calderon 
administration. Yet closer scrutiny reveals that only one of 
these cases actually qualifies as a conviction for human rights 
abuse. In that case, a soldier was sentenced to 9 months in 
prison for killing a civilian at the military checkpoint.
    The U.S. Government became Mexico's partner in the struggle 
against drug-related violence when it announced the Merida 
Initiative in 2007 and has since directed more than $1.3 
billion to the initiative. The U.S. Government conditioned 15 
percent of funds to the fulfillment of four human rights 
requirements, which include ensuring that military abuses are 
tried in civilian courts and enforcing the provision on 
torture.
    In August of 2009, the State Department submitted a report 
to Congress which clearly showed that Mexico was not meeting 
all four requirements. However, despite these findings, the 
Merida funds tied to human rights requirements were released 
following the report.
    The U.S. Government has rightly recognized its shared 
responsibility for confronting Mexico's violent cartels. By 
failing to uphold Merida's human rights conditions, the U.S. 
Government is shirking an important part of this 
responsibility.
    The U.S. Government has an opportunity to correct this 
mistake. In the coming months, the next 15-percent installment 
of Merida Initiative funds will be up for review. These funds 
should only be released when Mexico has actually met the four 
human rights requirements. Meeting these requirements would not 
only benefit human rights, but will also make Mexico's security 
forces more effective in their efforts to combat violent drug 
cartels.
    Mr. Chairman, thank you very much for allowing me to appear 
before you today.
    [The prepared statement of Mr. Vivanco appears as a 
submission for the record.]
    Chairman Durbin. Ms. Morera, thank you very much for being 
with us today. I invite you now to make your statement.

 STATEMENT OF MARIA ELENA MORERA, EXECUTIVE DIRECTOR, CAUSA EN 
                   COMUN, MEXICO CITY, MEXICO

    Ms. Morera. Thank you. Honorable Chairman, ladies and 
gentlemen, let me express my gratitude for the invitation and 
the opportunity to be here in this house of freedom and 
progress.
    I am a Mexican citizen who, like many other hard-working 
Mexicans who leave their country and all the beautiful things 
that we have to offer, has been a witness of how in recent 
years the peace and the freedom that we used to have in Mexico 
and that we used to enjoy has come to an end. And we are now 
facing one of the most violent eras of our history as a nation 
in some cities like Tijuana, Juarez, Reynosa, and some others.
    My life as a social activist against crime in Mexico can be 
traced back to September 2001 when my husband Pedro was 
kidnapped. For 29 days my children and I lived the most 
terrible time of our lives in solitude, sorrow, and pain.
    On October 19, Pedro was rescued from his captors, and we 
thought everything was finished. But we were under a big 
mistake. The judicial process of Pedro's kidnappers taught me 
about the tortuous ways of justice in Mexico, its complexity, 
its ``injustice,'' and the terrifying indifference toward the 
pain of the victims.
    Months went by and I began to help other families that have 
similar experience of kidnapping. By then, Mexico United 
Against Crime, an organization, invited me to make some 
programs for big themes, and then we made programs of 
prevention. So 2 years later, they elected me as president, a 
position that I held for more than 5 years.
    Yet since I was taught forever to keep working, to avoid 
normal families experience the ordeal me and my family went 
through, and after all the work that we do, I knew we have to 
face the problem from another perspective. So a few months ago, 
with a group of committed Mexicans, we started a new 
organization named Citizens for a Common Cause with three major 
lines: rule of law, accountability, and citizenship formation. 
I still help a lot of victims of organized crime, and I knew 
our challenge is daunting because the damage created by 
criminal organizations and drug cartels destroyed the social 
fabric in our communities.
    As you know, Mexican cartels get their enormous wealth from 
smuggling illegal drugs into the U.S. Obviously, they do not 
work alone, and they have many associates on the U.S. side. And 
more than 90 percent of the weapons confiscated today come from 
this country.
    I praise the steadfast determination of Mexican President 
Calderon to fight all drug cartels in Mexico. This fighting has 
the highest priority, but there are clearly many other tasks of 
an equal magnitude and long-lasting impact like revamping 
completely the police force, reforming institutions, as well 
reforming cleaning the corruption of the judicial and the jail 
system, work in prevention, and some more things. These tasks 
will require a great deal of attention, much larger budgets, 
and time to implement.
    While clearly the biggest share of the responsibility lies 
within the Mexican Government, my main objective here is to 
invite you to recognize that both the U.S. and Mexico should 
work together as never before to address the violence problem 
from its root causes.
    The Merida Initiative is good, but it is not enough. While 
there is no doubt that the resources the United States sends to 
Mexico are highly valuable, the problem is much more complex. 
Mexico cannot implement the rule of law and success in this 
effort if the U.S. domestic institutions do not participate by 
assuming their share of the responsibility and focus on two 
goals: drastically reducing illegal drug consumption and 
fighting against cross-border arms trafficking.
    We do not intend to question by any means the Bill of 
Rights and the Second Amendment of the U.S. Constitution.
    But I am sure you can find a solution to stop once and for 
all the lethal weapons from getting into the hands of the drug 
cartels, where they are used to kidnap, to extort, threaten, 
and kill Mexican citizens.
    Failure to do so will translate into chaos in Mexico, which 
will result in an unmanageable border problem where thousands 
of jobless Mexicans would attempt to flee to the United States 
to save their lives.
    So let me conclude by respectfully saying that I would like 
to leave this House with a commitment, yours and mine, to work 
more strongly in the rightful common cause of eradicating 
violence in Mexico. We need your help to reduce illegal drug 
consumption in the United States and to put legislation and 
public policies in place to stop weapons from getting into the 
hands of Mexican drug cartels.
    Thank you very much.
    [The prepared statement of Ms. Morera appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, and your testimony, I 
am glad, was the conclusion of these panels because it returned 
us to where we started, that before we stand in criticism or in 
judgment of Mexico, we must accept judgment on ourselves. Our 
insatiable appetite for drugs and narcotics in this country 
have created this market and led to this violence. And as you 
mentioned, the money and guns which we send into Mexico are 
fueling the drug cartels and the violence taking place there. 
So, clearly, let us start accepting our responsibility; that is 
the most important starting point.
    I thank you for your courage in being here, and I know that 
you have been through a lot personally with your family, and 
also working with so many victims of violence in Mexico.
    Can I ask you if you noticed or have heard of any changes, 
positive or negative, as the Calderon government has sent 
military forces into some of these areas of drug violence?
    Ms. Morera. Well, I think that we have some progress in 
Mexico. Surely we have. But the military intervention, I think 
that the military in Mexico is not prepared to work in a 
security problem, but now we do not have another thing. So I 
think we have to prepare them better, and I think they are 
trying to do their best. But we have to professionalize our 
police and our army to get better.
    They stay for a long time in Ciudad Juarez and in some 
places in Michoacan. If things do not get better, I think it is 
going to be the process maybe as Colombia, that it will go 
worse before it goes better. But I hope that the process is not 
so long. I think that we have to find--especially your 
Government and the Mexican Government have to find another form 
to attack this problem, because I cannot think that if we still 
have three pears, we can get apples, and maybe that is what we 
are trying to do.
    Chairman Durbin. So many of the victims that you have 
worked with are obviously living in fear, in fear that there 
will be some retribution against them if they speak up. Have 
you noticed any change, has there been an improvement in the 
law enforcement in Mexico or in the justice system that you 
think gives these victims more confidence to step forward and 
cooperate?
    Ms. Morera. Yes, I think that in--well, I think that not in 
all parts of Mexico, but in some parts the victims have more 
confidence, like, for example, if we are talking about 
kidnapping victims, if they go with the federal police, they 
have confidence and they think things are going to be--like 
they are going to be well. But I do not think that this is 
passing in all the cities, especially in the north part. Like 
in Chihuahua, I have a lot of victims over there, especially in 
the area of Levaron, and they are telling me that they do not 
have confidence. Maybe it is because the perception of the new 
system, the new justice system, is making that some people have 
more fear than before. That does not mean that I think there is 
not good. I think the system is going to be good, but it has to 
implement well. And we have to work much on that, and the 
United States has to work in that, too, because the system is 
going very, very low, and I do not think that we will get to 
the oral system in 6 years that is the time that we have.
    Chairman Durbin. Attorneys General Wasden and King, thank 
you for being here today, and thank you for the work that you 
are doing beyond your responsibilities in your home States to 
deal with this problem. We have this ongoing issue in the West 
about whether the Federal Government is doing enough, and in 
this instance, the State governments are doing a lot more than 
most people realize in Washington, and thank you for your 
initiative.
    So as I step back and look at this, not having been 
personally involved as both of you have been, it seems to me 
that we are dealing with two basic fundamental issues in terms 
of the law enforcement system in Mexico. The first is the issue 
of corruption where there are people who are in positions of 
power, who frankly will not do the right things because they 
are being paid to do otherwise, bribed to do otherwise. Then we 
have this whole question of competence and security as they 
change their system from the Napoleonic inquisitorial system to 
the adversarial system that we are familiar with. As I 
mentioned earlier, there is a much higher public profile in 
what they are doing. There is much more vulnerability in a very 
violent area.
    So as you weigh both of these, do you find one more than 
the other, or are these valid observations as to what is at the 
core of the problem with law enforcement prosecution?
    Mr. Wasden. Senator, Mr. Chairman, the answer is both of 
those are really valid observations. At least from my 
experience, among Mexican public officials there is a saying 
from the drug cartels, that is, ``Silver or lead: You can 
either accept our silver, our money, in bribery, or we will 
deliver lead.'' And that is true among those officials.
    So I am very proud of my colleagues in Mexico who are 
willing to reject the silver and face the lead in order to 
achieve justice. We have to work on both of those things. What 
we have to do is bring light into their judicial system. Once 
they get light in that judicial system, it will begin to 
operate, and you will see people like Ms. Morera who are 
willing to stand up and to stand for justice. And that is 
exactly what we have to have happen, is we have to help them 
get confidence in their own system, and they are fully capable 
of handling that. We do have to train them. They have to make 
this change. And we need to go forward with what we are doing. 
It is very critical.
    And we are able to expand the money that we get from the 
Merida Initiative by the contributions that States make of time 
and personnel in training them how to change a system. When you 
think about how difficult that is, that is a massive project. 
And it has the greatest potential for ultimately resolving the 
issues that we face here.
    Chairman Durbin. Attorney General King, address two issues 
that I think are part of this. When I visited some countries, 
for example, the nation of Georgia, former Soviet Republic, 
where there was rampant corruption--before the new government, 
they said you literally could not drive 1 mile without being 
pulled over by a traffic policeman who would say to you, ``I am 
going to either write up a ticket, or you are going to give me 
some money.'' And so they started by saying, ``Well, we just 
are not paying these traffic police enough. That is part of the 
problem.'' So they increased their salary. It still did not 
solve the problem. They ended up dismissing the entire traffic 
police force and starting over.
    Can you address that issue in terms of the compensation of 
legal professionals in Mexico and let me add to that efforts 
made to protect their security, as you mentioned, the 
bulletproof vests and so forth?
    Mr. King. Yes, thank you, Mr. Chairman. I will address that 
to the extent that I can, and I do not know that I am totally 
conversant with salaries. I am aware that--and I think with the 
help of USAID--there has been a great recruitment effort to 
recruit new investigators, new prosecutors, and that there is a 
vetting process and one that we feel like is an important 
vetting process. Being somebody who grew up on the border, I 
will admit that even in a good vetting process there may be 
ways for people to slip through and such. So I am not sort of 
guaranteeing the vetting process. But there continue to be, 
even with the great threat to the investigators and the 
prosecutors, young people and other people who particularly are 
willing to take that risk, and I think that they are very 
dedicated to their country. I think they are very dedicated to 
creating a just society there, and they are willing to do that.
    I had one other story I was going to tell that is sort of 
indicative of that. The Attorney General in Chihuahua, who I 
work with, was in New Mexico along with the Attorneys General 
from four other States, and we were discussing how we could 
expand the training program. And as I talked to each of the 
other AGs about what we could do, perhaps having other States 
even do some training--and I want to make it very clear that I 
think all of the States in the West have been participating in 
the training. I am talking about New Mexico because I know a 
little bit more about ours. But that they needed training, too. 
So I was talking about the training, and then my counterpart 
said, ``Well, we need more training as well.'' And I was being 
sort of flippant. And my Spanish is not great, but her English 
is less, so we were speaking in Spanish. So I hope that I 
translated everything right. But I was being a little flippant, 
and I said, ``Well, we just trained all of your folks 3 years 
ago.'' And she said, ``Yes, but most of them are dead now.''
    And certainly, for instance, the head of the crime lab is 
the last person I know of that was killed in Chihuahua of those 
folks that we trained, and that was about 6 months ago. And 
there have not been too many more since then.
    I think that things are improving. I have seen quotes from 
the folks in Juarez that say, you know, this is an interesting 
measure of improvement, but that the deaths per day in 
Chihuahua have been reduced from ten to six. And so, you know, 
that is a measure of improvement, but I think that we need to 
have a better, stronger program to recruit and vet those folks 
that will be doing that, and I think that that is important.
    And the military, I think, probably has a whole different 
program from the one that is being used to recruit 
investigators and such.
    Chairman Durbin. Well, that is where I wanted to go next, 
because I think Mr. Vivanco's testimony leads me to this 
question. If either of you--or perhaps Mr. Vivanco can testify. 
Have you talked to this, what we would view as the basic 
judicial part of our system, the prosecutorial part of our 
system in the United States being somewhat separate in its 
orbit from the military justice system? Now Mr. Vivanco raises 
the point that once the military comes in and has a presence, 
they become a force in terms of, we hope, suppressing crime, 
but also they can be a force in the wrong direction.
    Have either of you as Attorneys General worked with these 
prosecutors and judges and learned the relationship they have 
with the military once they are involved in trying to suppress 
drug violence?
    Mr. King. Mr. Chairman, I have had discussions because a 
lot of the military forces went to Juarez and there was--you 
know, initially there was some suppression of violence in 
Juarez, and then there was some increase. And so there was a 
lot of discussion in Juarez about whether the military presence 
helped. And so I just had some discussion with my counterparts 
in Mexico who feel like indeed that they have and are getting 
the training that is necessary to address that and that they 
should be able to address that with their police and their 
prosecutors rather than having the military do it. And so they 
are very proud of what they think that they can do.
    We have not talked at all about--and I thought that the 
testimony was interesting here today--their ability to 
prosecute, say, somebody military who was accused of a crime. I 
do not think they do very much of that. And so I assume that 
the system isolates them indeed, but I do not know very much 
about that system.
    Chairman Durbin. Mr. Vivanco, can you testify to that? 
These prosecutions for human rights abuses of the military--and 
as you say, three were alleged and only one turned out to be a 
real human rights abuse. Was it done in the criminal courts of 
Mexico or through some military tribunal?
    Mr. Vivanco. Military tribunals, and according to the 
Mexican practice, as well as the military penal code of Mexico, 
any human rights abuse, any for these purposes common crime, 
committed by a soldier or an officer on duty should be 
investigated by the military justice system. And that is not 
what the Constitution of Mexico established, and that is not 
what the international human rights obligations that are 
binding on Mexico as a result of ratification of international 
treaties, human rights treaties, established.
    As a matter of fact, back in December, the Inter-American 
Court of Human Rights, which is the top human rights tribunal 
for Latin America, ruled on a case that involved Mexico that 
they have to reform their military justice systems so in the 
future any human rights violation, anyone should be prosecuted 
under civilian jurisdiction, not under military jurisdiction. 
And you need to keep the military jurisdiction just for 
disciplinary actions against soldiers or officers that break 
the rules.
    Now, the Mexican Government--and I think it is important to 
be on the record here--has publicly stated that they will 
comply in full with the rule of the Inter-American Court on 
Human Rights. And just recently, the home minister, Mr. Gomez 
Mont, Fernando Gomez Mont, the home minister of Mexico, the 
second most important authority in the government, publicly 
pledged that they will reform the military system, the military 
justice system, so they will introduce draft legislation by 
September to shift human rights investigations or human rights 
prosecutions from military jurisdiction to civilian 
jurisdiction.
    So hopefully in the near future, human rights violations 
committed by security forces, especially the army, will be 
investigated by civilian officials in Mexico.
    Chairman Durbin. There were references in my preparation 
here to the Federal police force as well, and I cannot quite 
draw an analogy. I do not know if that is like the FBI in the 
United States or something comparable to it. But would they be 
subject to the same type of criminal prosecution through the 
courts of Mexico?
    Mr. Vivanco. Right. I mean, today the most recalcitrant 
force or institution in Mexico to civilian jurisdiction or 
even, I would say, to subordinate their actions to civilian 
authorities is the army. Traditionally, the armed forces of 
Mexico, and specifically the army, has been quite an enclave in 
Mexican democracy. You know, for many, many years, the 
Government of Mexico has had difficulty establishing the rule 
of law within the army.
    The rest of the security forces, specifically to answer 
your question, the police, for instance, the Federal police, 
municipal police, state police in Mexico, if they engage in 
human rights violations, those cases are usually investigated 
by the civilian officials.
    Chairman Durbin. So, Mr. Wasden, when you were involved in 
this--Mr. King as well--we have talked here about the use of 
torture and how ultimately some of these practices that are, in 
fact, human rights abuses really do not lend themselves to good 
police work, good criminal investigation, and prosecution. Has 
this come up in the course of your discussion with the 
investigators and prosecutors and judges?
    Mr. Wasden. I guess the most conversation I have had about 
these sorts of things has really been with individuals who have 
been the victims of these kinds of crimes, and also in my 
discussions with Federal officials in Mexico who readily 
acknowledge that there is rife corruption among their law 
enforcement ranks as well as some concerns about the military. 
So I think it is a problem overall that has to be addressed by 
the general rule of law. This is sort of from a very 
theoretical approach, but, again, shedding light on that, 
giving confidence in the system that will protect the rights of 
the individual is really critical. And that includes abuses 
that may be imposed by military rule.
    Chairman Durbin. But do they generally concede the point 
that these things that may look good on some television shows 
do not ultimately lead to successful prosecutions and 
establishing the rule of law and order in their society?
    Mr. Wasden. Yes, actually one of the conversations I had 
was that they told me that they had named a specific police 
force and said that the entire police force was corrupt. They 
readily admitted that. I was kind of shocked that they would so 
objectively make that statement and more shocked that they 
would make that statement to me, an American citizen. But they 
were very straightforward in their willingness to acknowledge 
the level and extent of corruption that existed with regard to 
this issue.
    Chairman Durbin. Well, I thank this panel for--Mr. King, 
did you have a comment?
    Mr. King. Can I add, Mr. Chairman, one thing to that, and 
one thing I did not want to let get away today? Those folks 
that we are working with, though, the Attorneys General's 
offices in Mexico, are really striving to be very professional, 
and we have gotten to where we know a lot of them personally. 
And I think that they are working to develop good crime labs, 
to develop good techniques. They are very hungry for the 
training that we are giving them, to learn that.
    And so none of the people that we work with that I am aware 
of would condone torture, you know, use that as any kind of 
policy or anything. I mean, they are working really hard to do 
a good job, and as a matter of fact, one time when I was 
traveling down there with the head of what we call our Border 
Violence Unit--I have a unit within my agency called the Border 
Violence Unit. They took me to talk to me about some policy 
things, and they told her they had a crime scene that they were 
scratching their heads over and having some problems with, 
would she be willing to go to the crime scene with them and 
give them ideas about what they ought to be looking for and 
such.
    So the alliance and the work that we are doing is really 
designed to try and drive that professionalism, and I think it 
is doing a good job. And if I could, another 30 seconds, you 
have mentioned a couple times, Mr. Chairman, the lack of some 
Federal resources to do this. I want to credit some Federal 
resources that we have. One that we have talked about is the 
USAID grant that we have to do this training, around $2.5 
million. We, the Attorneys General, have provided in-kind 
services of around $600,000 this year, so, you know, it is not 
big compared even to the amount of the Merida Initiative, but 
we think that with that we--with that we have trained 1,500 
people, and we think that is good.
    But we also, for instance, have a Department of Justice 
grant that helped me increase the size of my Border Violence 
Unit by a significant amount, and we are using that to fight 
human trafficking on the border. And there are other Department 
of Justice grants that are helping us to fight arms trafficking 
on the border, which I think is a very important thing.
    So I guess we want to make a pitch that those grants from 
the Department of Justice and from USAID have been beneficial, 
and we would like to continue to see that funding. But it is 
not that there is not anything that the Federal Government is 
doing here. I think they are doing some things. But I think 
that there are programs that could be improved, too.
    Chairman Durbin. Thank you. My thanks to this panel. Ms. 
Morera especially, thanks to you for your courage to come here 
and testify. Mr. Vivanco, thank you for the perspective. 
Attorneys General Wasden and King, thank you as well.
    This little Subcommittee has created, I think, some very 
fascinating and important hearings, including this one today. 
We have been the authors of at least three new laws that have, 
I think, substantially improved our ability to prosecute 
violators of human rights who reside in the United States, and 
as we heard earlier from Mr. Breuer, have been part of the 
effort to create a special unit within the Department of 
Justice relative to human rights.
    When I got started with this Subcommittee, I did not know 
that we would have such an opportunity or such a varied agenda 
during the course of the 3 years or so that we have been in 
business. I will say that one of the reasons that we have been 
this successful is the extraordinary work of my staff, and I 
want to give particular thanks today to a member of my staff 
who is departing, Heloisa Griggs, who has been here from the 
beginning and is an inspiration to all of us. She is returning 
to her native Brazil, and she is just an extraordinarily 
talented woman that we have been very blessed to have as part 
of our effort here. Heloisa, thank you so much for all that you 
have done.
    We may have some questions that we will follow up and send 
to you along the way in the next day or two, and I hope you can 
look at them and respond in a timely way. But I appreciate your 
being here, and this Subcommittee will stand adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T6175.001

[GRAPHIC] [TIFF OMITTED] T6175.002

[GRAPHIC] [TIFF OMITTED] T6175.003

[GRAPHIC] [TIFF OMITTED] T6175.004

[GRAPHIC] [TIFF OMITTED] T6175.005

[GRAPHIC] [TIFF OMITTED] T6175.006

[GRAPHIC] [TIFF OMITTED] T6175.007

[GRAPHIC] [TIFF OMITTED] T6175.008

[GRAPHIC] [TIFF OMITTED] T6175.009

[GRAPHIC] [TIFF OMITTED] T6175.010

[GRAPHIC] [TIFF OMITTED] T6175.011

[GRAPHIC] [TIFF OMITTED] T6175.012

[GRAPHIC] [TIFF OMITTED] T6175.013

[GRAPHIC] [TIFF OMITTED] T6175.014

[GRAPHIC] [TIFF OMITTED] T6175.015

[GRAPHIC] [TIFF OMITTED] T6175.016

[GRAPHIC] [TIFF OMITTED] T6175.017

[GRAPHIC] [TIFF OMITTED] T6175.018

[GRAPHIC] [TIFF OMITTED] T6175.019

[GRAPHIC] [TIFF OMITTED] T6175.020

[GRAPHIC] [TIFF OMITTED] T6175.021

[GRAPHIC] [TIFF OMITTED] T6175.022

[GRAPHIC] [TIFF OMITTED] T6175.023

[GRAPHIC] [TIFF OMITTED] T6175.024

[GRAPHIC] [TIFF OMITTED] T6175.025

[GRAPHIC] [TIFF OMITTED] T6175.026

[GRAPHIC] [TIFF OMITTED] T6175.027

[GRAPHIC] [TIFF OMITTED] T6175.028

[GRAPHIC] [TIFF OMITTED] T6175.029

[GRAPHIC] [TIFF OMITTED] T6175.030

[GRAPHIC] [TIFF OMITTED] T6175.031

[GRAPHIC] [TIFF OMITTED] T6175.032

[GRAPHIC] [TIFF OMITTED] T6175.033

[GRAPHIC] [TIFF OMITTED] T6175.034

[GRAPHIC] [TIFF OMITTED] T6175.035

[GRAPHIC] [TIFF OMITTED] T6175.036

[GRAPHIC] [TIFF OMITTED] T6175.037

[GRAPHIC] [TIFF OMITTED] T6175.038

[GRAPHIC] [TIFF OMITTED] T6175.039

[GRAPHIC] [TIFF OMITTED] T6175.040

[GRAPHIC] [TIFF OMITTED] T6175.041

[GRAPHIC] [TIFF OMITTED] T6175.042

[GRAPHIC] [TIFF OMITTED] T6175.043

[GRAPHIC] [TIFF OMITTED] T6175.044

[GRAPHIC] [TIFF OMITTED] T6175.045

[GRAPHIC] [TIFF OMITTED] T6175.046

[GRAPHIC] [TIFF OMITTED] T6175.047

[GRAPHIC] [TIFF OMITTED] T6175.048

[GRAPHIC] [TIFF OMITTED] T6175.049

[GRAPHIC] [TIFF OMITTED] T6175.050

[GRAPHIC] [TIFF OMITTED] T6175.051

[GRAPHIC] [TIFF OMITTED] T6175.052

[GRAPHIC] [TIFF OMITTED] T6175.053

[GRAPHIC] [TIFF OMITTED] T6175.054

[GRAPHIC] [TIFF OMITTED] T6175.055

[GRAPHIC] [TIFF OMITTED] T6175.056

[GRAPHIC] [TIFF OMITTED] T6175.057

[GRAPHIC] [TIFF OMITTED] T6175.058

[GRAPHIC] [TIFF OMITTED] T6175.059

[GRAPHIC] [TIFF OMITTED] T6175.060

[GRAPHIC] [TIFF OMITTED] T6175.061

[GRAPHIC] [TIFF OMITTED] T6175.062

[GRAPHIC] [TIFF OMITTED] T6175.063

[GRAPHIC] [TIFF OMITTED] T6175.064

[GRAPHIC] [TIFF OMITTED] T6175.065

[GRAPHIC] [TIFF OMITTED] T6175.066

[GRAPHIC] [TIFF OMITTED] T6175.067

[GRAPHIC] [TIFF OMITTED] T6175.068

[GRAPHIC] [TIFF OMITTED] T6175.069

[GRAPHIC] [TIFF OMITTED] T6175.070

[GRAPHIC] [TIFF OMITTED] T6175.071

[GRAPHIC] [TIFF OMITTED] T6175.072

[GRAPHIC] [TIFF OMITTED] T6175.073

[GRAPHIC] [TIFF OMITTED] T6175.074

[GRAPHIC] [TIFF OMITTED] T6175.075

[GRAPHIC] [TIFF OMITTED] T6175.076

[GRAPHIC] [TIFF OMITTED] T6175.077

[GRAPHIC] [TIFF OMITTED] T6175.078

[GRAPHIC] [TIFF OMITTED] T6175.079

[GRAPHIC] [TIFF OMITTED] T6175.080

[GRAPHIC] [TIFF OMITTED] T6175.081

[GRAPHIC] [TIFF OMITTED] T6175.082

[GRAPHIC] [TIFF OMITTED] T6175.083

[GRAPHIC] [TIFF OMITTED] T6175.084

[GRAPHIC] [TIFF OMITTED] T6175.085

[GRAPHIC] [TIFF OMITTED] T6175.086

[GRAPHIC] [TIFF OMITTED] T6175.087

[GRAPHIC] [TIFF OMITTED] T6175.088

[GRAPHIC] [TIFF OMITTED] T6175.089

[GRAPHIC] [TIFF OMITTED] T6175.090

[GRAPHIC] [TIFF OMITTED] T6175.091

[GRAPHIC] [TIFF OMITTED] T6175.092

[GRAPHIC] [TIFF OMITTED] T6175.093

[GRAPHIC] [TIFF OMITTED] T6175.094

[GRAPHIC] [TIFF OMITTED] T6175.095

[GRAPHIC] [TIFF OMITTED] T6175.096

[GRAPHIC] [TIFF OMITTED] T6175.097

[GRAPHIC] [TIFF OMITTED] T6175.098

[GRAPHIC] [TIFF OMITTED] T6175.099

[GRAPHIC] [TIFF OMITTED] T6175.100

[GRAPHIC] [TIFF OMITTED] T6175.101

[GRAPHIC] [TIFF OMITTED] T6175.102

[GRAPHIC] [TIFF OMITTED] T6175.103

[GRAPHIC] [TIFF OMITTED] T6175.104

[GRAPHIC] [TIFF OMITTED] T6175.105

[GRAPHIC] [TIFF OMITTED] T6175.106

[GRAPHIC] [TIFF OMITTED] T6175.107

[GRAPHIC] [TIFF OMITTED] T6175.108

[GRAPHIC] [TIFF OMITTED] T6175.109

[GRAPHIC] [TIFF OMITTED] T6175.110

[GRAPHIC] [TIFF OMITTED] T6175.111

[GRAPHIC] [TIFF OMITTED] T6175.112

[GRAPHIC] [TIFF OMITTED] T6175.113

[GRAPHIC] [TIFF OMITTED] T6175.114

[GRAPHIC] [TIFF OMITTED] T6175.115

[GRAPHIC] [TIFF OMITTED] T6175.116

[GRAPHIC] [TIFF OMITTED] T6175.117

[GRAPHIC] [TIFF OMITTED] T6175.118

[GRAPHIC] [TIFF OMITTED] T6175.119

[GRAPHIC] [TIFF OMITTED] T6175.120

[GRAPHIC] [TIFF OMITTED] T6175.121

[GRAPHIC] [TIFF OMITTED] T6175.122

[GRAPHIC] [TIFF OMITTED] T6175.123

[GRAPHIC] [TIFF OMITTED] T6175.124

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
